i

No. 20-____

In the

Supreme Court of the United States
PASADENA REPUBLICAN CLUB,
Petitioner,
v.
WESTERN JUSTICE CENTER, J UDITH CHIRLIN, AND CITY
OF PASADENA,
Respondents.
On Petition for a Writ of Certiorari
to the United States Court of Appeals for the
Ninth Circuit

PETITION FOR WRIT OF CERTIORARI

ANTHONY T. CASO
Counsel of Record
Center for Constitutional
Jurisprudence
Claremont Institute
1317 W. Foothill Blvd., Ste 120
Upland, CA 91786
(877) 855-3330
tcaso@claremont.org

Counsel for Petitioner

i
QUESTIONS PRESENTED
The City of Pasadena entered into a lease with
the Western Justice Center, which including the option to renew runs for 99 years, to operate a center for
dispute resolution on property owned by the City.
City funds were used to purchase the property from
the United States General Services Administration –
only a governmental entity could legally purchase the
property – and revenue from city bonds was given to
the Western Justice Center to pay for the refurbishment of the property. The property was purchased to
carry out the public purposes of the City and the City
limited its use to purposes stated in a Plan of Public
Use. The City relied on rent payments from the Western Justice Center to repay the City’s treasury for the
cost of the purchase and the refurbishment financed
by the sale of municipal bonds.
The Western Justice Center exercised its delegated authority over that City-owned property to cancel an event by the Pasadena Republican Club because Center disagreed with the view of the speaker
chosen by the Club
The questions presented for review is under these
circumstances are:
1. While it is managing the city-owned property,
is the Western Justice Center a State Actor for purposes of the First and Fourteenth Amendments and
42 U.S.C. §§ 1983 and 1985(3)?
2. Consistent with the Court’s ruling in Burton v.
Wilmington Parking Authority, 365 U.S. 715 (1961), is
a government agency liable for civil rights violations
where the agency, through “inaction has not only

ii
made itself a party to the [viewpoint discrimination]
but has elected to place its power, property and prestige behind” that discrimination?

iii
PARTIES TO THE PROCEEDING
Petitioner Pasadena Republican Club was the
plaintiff in the District Court and the appellant before
the Ninth Cirtcuit Court of Appeals. Repondents
Western Justice Center, Judith Chirlin, and City of
Pasadena, California defendants in the District Court
proceedings and appellees in the Court of Appeals.
RELATED CASES
•
•

Pasadena Republican Club v. Western Justice
Center, 424 F. Supp.3d 861 (CD Cal. 2019)
Pasadena Republican Club v. Western Justice
Center, 985 F.3d 1161 (9th Cir. 2021)

iv
CORPORATE DISCLOSURE STATEMENT
Petitioner is not a corporation and has not issued
shares of stock to any person

v
TABLE OF CONTENTS
QUESTIONS PRESENTED........................................ i
PARTIES TO THE PROCEEDING .......................... iii
RELATED CASES ..................................................... iii
CORPORATE DISCLOSURE STATEMENT ........... iv
TABLE OF APPENDICES ....................................... vii
TABLE OF AUTHORITIES .................................... viii
PETITION FOR WRIT OF CERTIORARI ................ 1
OPINIONS BELOW ................................................... 1
STATEMENT OF JURISDICTION ........................... 1
PERTINENT STATUTORY AND
CONSTITUTIONAL PROVISIONS ................... 1
STATEMENT OF THE CASE ................................... 2
The Western Justice Center and the City of
Pasadena. ..................................................... 3
The Decision of the Ninth Circuit Court of
Appeals. ...................................................... 10
REASONS FOR GRANTING THE PETITION ....... 10
I.

The Decision of the Ninth Circuit
Conflicts with Decisions of this Court and
other Circuit Courts of Appeals on
Important Question of Federal Law ......... 11
A.

The decision of the Ninth Circuit
conflicts this Court’s decision in
Burton on the meaning of financial
indispensability. .............................. 12

vi
B.

The decision of the Ninth
Circuit conflicts with this
Court’s decision in Burton
and the decisions of other
Circuit Courts of Appeals on
whether the City must be
directly involved in the alleged
unconstitutional action. .................. 13

C.

The decision of the Ninth Circuit
conflicts the decisions of this Court
and other Circuit Courts of Appeals
on finding state action where the
putatively private organization
operates public property. ................ 15

CONCLUSION ......................................................... 17

vii
TABLE OF APPENDICES
Pasadena Republican Club v.
Western Justice Center,
985 F.3d 1161 (9th Cir. 2021) ...................... App. 1
Pasadena Republican Club v.
Western Justice Center,
424 F. Supp.3d 861 (CD Cal. 2019) ........... App. 25
First Amended Complaint ............................. App. 69
Lease Agreementa (Exhibit 2 to City’s
Motion for Summary Judgement ................ App. 95

viii
TABLE OF AUTHORITIES
Cases
Air Line Pilots Ass’n, Int’l v. Dep’t of Aviation of City
of Chicago,
45 F.3d 1144 (7th Cir. 1995) ................................. 16
Blum v. Yaretsky,
457 U.S. 991 (1982) ............................................... 11
Burton v. Wilmington Parking Authority,
365 U.S. 715 (1961) ........................................passim
Fernandes v. Limmer,
663 F.2d 619 (5th Cir. 1981) ................................. 16
Frazier v. Bd. of Trustees of Nw. Mississippi Reg’l
Med. Ctr.,
765 F.2d 1278 (5th Cir. 1985), amended, 777 F.2d
329 (5th Cir. 1985) ................................................ 14
Gerena v. Puerto Rico Legal Servs., Inc.,
697 F.2d 447 (1st Cir. 1983) ........................... 14, 15
Gilmore v. City of Montgomery, Ala.,
417 U.S. 556 (1974) ............................. 11, 12, 15, 16
Jackson v. Metro. Edison Co.,
419 U.S. 345 (1974) ............................................... 11
Manhattan Community Access Corp. v. Halleck,
139 S.Ct. 1921 (2019) ............................................ 11
Moose Lodge No. 107 v. Irvis,
407 U.S. 163 (1972) ............................................... 12
Nat’l Collegiate Athletic Ass’n v. Tarkanian,
488 U.S. 179 (1988) ............................................... 11

ix
Rendell-Baker v. Kohn,
457 U.S. 830 (1982) ......................................... 11, 13
San Francisco Arts & Athletics, Inc. v. United States
Olympic Committee,
483 U.S. 522 (1987) ............................................... 11
Statutes
40 U.S.C. § 484(e)(3)(H)............................................ 11

1
PETITION FOR WRIT OF CERTIORARI
Petitioner Pasadena Republican Club respectfully petitions this Court for a writ of certiorari to review the judgment of the United States Court of Appeals for the Ninth Circuit.
OPINIONS BELOW
The opinion of the Circuit Court of Appeals for
the Ninth Circuit is reported at 985 F.3d 1161 (9th
Cir. 2021) and is reproduced in the Appendix at pages
App. 1-24. The decision of the District Court is reported at 424 F. Supp.3d 861 (CD Cal. 2019) and is
reproduced in the Appendix at pages App. 25-68.
STATEMENT OF JURISDICTION
The judgment of the court below affirming the
judgment of the District Court was entered on on January 21, 2021. This Court has jurisdiction pursuant
to 28 U.S.C. § 1254(1).
PERTINENT STATUTORY AND
CONSTITUTIONAL PROVISIONS
The First Amendment to the United States Constitution provides, in relevant part: “Congress shall
make no law … abridging the freedom of speech”
Section 1983 of Title 42 of the United States Code
provides, in pertinent part:
Every person who, under color of any
statute, ordinance, regulation, custom, or usage, of any State or Territory or the District
of Columbia, subjects, or causes to be subjected, any citizen of the United States or
other person within the jurisdiction thereof

2
to the deprivation of any rights, privileges, or
immunities secured by the Constitution and
laws, shall be liable to the party injured in
an action at law, suit in equity, or other
proper proceeding for redress.
Section 1985(3) provides, in pertinent part:
If two or more persons in any State or
Territory conspire … for the purpose of depriving, either directly or indirectly, any person or class of persons of the equal protection
of the laws; … in any case of conspiracy set
forth in this section, if one or more persons
engaged therein do, or cause to be done, any
act in furtherance of the object of such conspiracy, whereby another is injured in his
person or property, or deprived of having and
exercising any right or privilege of a citizen
of the United States, the party so injured or
deprived may have an action for the recovery
of damages occasioned by such injury or deprivation, against any one or more of the conspirators.
STATEMENT OF THE CASE
In Burton v. Wilmington Parking Authority, 365
U.S. 715 (1961), this Court held:
By its inaction, the Authority, and through it
the State, has not only made itself a party to
the refusal of service, but has elected to place
its power, property and prestige behind the
admitted discrimination. The State has so
far insinuated itself into a position of inter-

3
dependence with Eagle that it must be recognized as a joint participant in the challenged activity, which, on that account, cannot be considered to have been so ‘purely private’ as to fall without the scope of the Fourteenth Amendment.
While this Court has declined to extend the holding in Burton beyond the “joint participant” theory of
state action, neither has it overruled Burton. This
case tests whether the “joint action” test of Burton is
still the law of the land.
The Western Justice Center and the City of
Pasadena.
A group of federal judges from this Ninth Circuit
“initiated” the Western Justice Center “as an appropriate use” of the buildings adjacent to the Federal
Building on Grand Avenue in Pasadena. App. 161.
The Ninth Circuit judges that created the concept envisioned a campus setting for nonprofits pursuing law
reform activities to interact with each other. Id. Although the property was already owned by the federal
government, neither the Ninth Circuit itself nor any
other agency of the federal government approved that
use for the property. The Western Justice Center, as
a private organization, was not qualified to purchase
the property. App. 96. Only a governmental entity,
such as a state or a political subdivision of the state,
could legally purchase the property. 40 U.S.C. §
484(e)(3)(H). Instead, the judge-initiated Western
Justice Center proposed a joint project with the City
of Pasadena for the property (hereafter Maxwell
House property). App. 169.

4
In order to pursue this project with the Western
Justice Center, the City put together a proposal to
submit to the General Services Administration along
with a proposed agreement to lease the Maxwell
House property to the Western Justice Center. App.
167-76. The lease listed the chambers of Ninth Circuit
Judge Dorothy Nelson at the federal courthouse as the
address for notices to the Western Justice Center.
App. 150.
In the lease, the City specifically disclaimed any
commercial justification for the transaction. App. 96.
Instead, the City noted that it was pursuing the public
purposes of acquiring the property for historic preservation and to promote alternative dispute resolution.
App. at 95-96. Thus, the City limited the uses to
which the Western Justice Center could put the property. App. 101-02, 160-65. Those limitations were included in the proposal for purchase of the property
that the City submitted to the General Services Administration. App. 183. The limitations were also
spelled out in the lease and the attached “Plan of Public Use” identifying the public purposes to which the
property could be put. App. 101-02, 160-65. The offer
to purchase, including the Plan of Public Use, was also
submitted to Congress. App. 174.
The statement of public purposes limited and defined how Western Justice Center could use the property. The uses envisioned for the property in the Plan
of Public Use included space for the Department of
Justice’s research of alternative forms of dispute resolution, the Institute of Judicial Administration,
American Law Institute-American Bar Association
Committee on continuing Professional Education, and

5
the California Commission of Lawyer Competence
and Legal Education, among others. App. 164-65.
The lease between the City and the Western Justice Center was very clear that the City intended the
transaction to fulfill the public purposes of the City
and expressly noted that the lease was not entered
into for commercial purposes. App. 96. Indeed, forprofit commercial activity on the Maxwell House property was prohibited in the lease agreement. App. 102.
The lease allowed the Western Justice Center to sublet portions of the property, but only to “tax exempt
organizations providing law related services, and for
no other purposes whatsoever.” Id. The Western Justice Center kept the funds it received from subletting
the City-owned property. Id.
The General Services Administration approved
the City’s proposal and sold the Maxwell House property to the City (through the City’s Surplus Property
Authority) for the sum of $412,000. App. 216-17.
Western Justice Center paid the City advance rent in
the amount of $82,400 to cover the down payment to
the federal government for the purchase. Id. The City
contracted with the federal government to pay the balance over 10 years. App. 217.
On April 4, 1989, the City, acting through its Surplus Property Authority, executed the original lease
for the Maxwell House property with the Western Justice Center for a term of 55 years with an option for a
renewal term of an additional 44 years. App. 96-97.
Initial rent was set at an amount that would reimburse the City for payments to the federal government
for purchase of the property. App. 171. However, in
the event that Western Justice Center defaulted on its

6
rental obligation, the City would have been liable for
the remaining loan payments to the federal government.
Although the City wanted the property for its
own public purposes, it did not want spend any of its
own money to make the purchase or to refurbish the
property. App. at 95-96. Instead, at the time it made
the purchase, it relied 100 percent on Western Justice
Center to pay for the purchase and refurbishment of
the property. App. at 98-100, 103.
There were delays in the transfer of possession
and the lease was amended to grant Western Justice
Center more time to complete the repairs. App. 18385. As of this amendment, Western Justice Center
was responsible for raising the funds necessary for the
repairs. App. 191. Western Justice Center was unable to meet this revised schedule and the lease was
amended a second time to allow more time for fundraising and an extended schedule for the repairs.
App. 200. The City agreed to this extension because
the Center would provide “an institutional center of
national repute for study and research in the areas of
law reform, improvements to judicial administration
and lawyer competency, law-related education and
services to the community with respect to improvement in legal processes.” Id.
Even with the extensions, fundraising for the project proved to be too difficult for the Western Justice
Center. In the third amendment to the lease, the City
borrowed money through Certificates of Participation
in order to “assist on the rehabilitation” of the property. App. 217-18. The City loaned its credit to the
Western Justice Center for the repair of the property.

7
Because the City was now using money from the
Certificates of Participation to provide funds to the
Western Justice Center for repair and refurbishment
of the property, in addition to using its credit for the
purchase of the property, a third amendment to the
lease was executed adjusting the rent to the amount
necessary to reimburse taxpayers. App. 209-10. After
all of the funds borrowed through the use of the City’s
credit had been repaid by Western Justice Center,
rent for the property was reduced to $1.00 per month.
App. 76.
As noted above, the lease agreement allowed the
Western Justice Center to sublet portions of the property to other organizations that fit within the Plan of
Public Use. App. 101-02. The lease required notice of
subleases to the City of Pasadena, but did not require
the Western Justice Center to turn over the rent it received on these subleases of City-owned property to
the City. App. 132-34. While subletting was strictly
controlled, the lease gave Western Justice Center unrestricted freedom to rent the premises outside of
business hours. App. 102. Nothing in the lease prohibited discrimination in these after-hour rental
agreements. Id.
The Western Justice Center’s decision to discriminate in after-hours rentals.
The Western Justice Center used its delegated
authority under the lease to rent out the Maxwell
House for various purposes outside of normal business
hours. Prior to April 20, 2017, the Pasadena Republican Club rented the Maxwell House for meetings in
the evening. App. 76. The Club planned to use the

8
facility again and executed a contract with the Western Justice Center to rent the Maxwell House the
evening of April 20, 2017, for a meeting at which Dr.
John Eastman, a noted constitutional scholar and former dean of the law school at Chapman University,
was the scheduled speaker. App. 76-78. Retired California Judge Judith Chirlin was the executive director of the Western Justice Center and knew that Dr.
Eastman (whom she described as a “professor and author”) was the scheduled speaker for the meeting.
App. 79. The event was planned to open for registration at 6:30 pm with the program to begin at 7:00 pm.
Id.
At 3:43 pm on the day of the event (less than
three hours before the event was to begin), Judith
Chirlin sent an email to Lynn Gabriel, the president
of the Pasadena Republican Club, cancelling the contract for use of the City-owned Maxwell House property. Id. Ms. Chirlin’s cancellation notice explained
“we learned today that [Dr. Eastman] is the President
[sic] of the National Organization for Marriage
(NOM). NOM’s positions on same-sex marriage, gay
adoption, and transgender rights are antithetical to
the values of the Western Justice Center.” App. 7980. Ms. Chirlin further explained “Through these efforts we have built a valuable reputation in the community, and allowing your event in our facility would
hurt our reputation in the community.” Id. (Emphasis added. The facility in question was the City-owned
property known as the Maxwell House.). Ms. Chirlin
confirmed that this was the decision of the Western
Justice Center’s executive committee, which included

9
federal judges. App. 73, 80. The president of the
Western Justice Center was copied on Chirlin’s email.
The National Organization for Marriage is a national organization that works to defend marriage and
the faith communities that sustain it at the local,
state, and national levels. It does not advocate bias of
any type. App. 80.
In addition to cancelling this event, the Western
Justice Center adopted a policy banning the Pasadena
Republican Club from future rentals of the Cityowned Maxwell House. App. 77. This policy was
adopted by the executive committee of the Western
Justice Center. Id. Although Ms. Chirlin stated this
policy banned rentals to all political groups, the Western Justice Center continued to sublet City-owned
property on the Maxwell House campus to the League
of Women Voters of Pasadena Area and allowed the
League to use portions of the Maxwell House for its
events. Id. Although the League of Women Voters of
Pasadena Area claims to be nonpartisan, it generally
adopts political positions on issues contrary to the positions of the Pasadena Republican Club. Id.
Procedural History
The Pasadena Republican Club filed this action
in November of 2018 and filed a First Amended Complaint in February of 2019. The First Amended Complaint pleads causes of action against the City, the
Western Justice Center, and Judith Chirlin for viewpoint discrimination, religious belief discrimination,
and violation of the free exercise of religion in violation of the First Amendment and 42 U.S.C. §1983. A
fourth cause of action was pled against Judith Chirlin

10
under 42 U.S.C. §1985(3) for conspiracy to deny civil
rights. The City filed a Motion for Summary Judgment and Western Justice Center and Judith Chirlin
filed a Motion to Dismiss. The District Court granted
those motions and entered judgment of dismissal.
The Decision of the Ninth Circuit Court of
Appeals.
The Ninth Circuit affirmed the District Court’s
judgment dismissing the complaint. Based on prior
Ninth Circuit precedent, the court below held that
Burton only applies where a private actor renders a
service that is indispensable to the financial viability
of the government agency. App. 14, 19 (“the Club fails
to plead that WJC’s nonprofit operations are indeispensable to the City’s continued viability”). The
lower court also distinguished this case from Burton
because the City did not pay for utilities at the Western Justice Center and did not provide maintenance.
App. 17. Finally, the lower court ruled that Burton
did not apply because there was no allegation that the
City participated in or had knowledge of the Western
Justice Center’s viewpoint and religious discrimination. App. 20. The court upheld the dismissal of the
section 1985(3) claims because of the holding that the
Western Justice Center was not a state actor. App.
21.
REASONS FOR GRANTING THE PETITION
The City of Pasadena purchased property from the
federal government and granted exclusive use of the
City-owned property to the Western Justice Center for
just one year short of a century. The Western Justice
Center was an organization “initiated” by judges of

11
the Ninth Circuit Court of Appeals, and the address
specified in the lease for notices to the Center is the
chambers of Ninth Circuit Judge Dorothy Nelson. In
making the purchase, the City represented to the
General Services Administration and, through the
GSA, Congress, that the property, which by law could
only be sold to a governmental entity (40 U.S.C. §
484(e)(3)(H)) would be used for public purposes outlined in the Plan of Public Use attached to the proposed lease with the Western Justice Center.
In ruling that the Western Justice Center was not
a state actor in its management of City-owned property, the Ninth Circuit issued a decision on an important question of federal law which conflicts with
the decisions of this Court and the decisions of other
Circuit Courts of Appeals.
I.

The Decision of the Ninth Circuit Conflicts
with Decisions of this Court and other Circuit Courts of Appeals on Important Question of Federal Law

Whether a putatively “private party” is a state actor for purposes of the Constitution and Section 1983
is an important question of federal law as witnessed
by the number of decisions of this Court examining
that question. See, e.g., Manhattan Community Access Corp. v. Halleck, 139 S.Ct. 1921 (2019); San Francisco Arts & Athletics, Inc. v. United States Olympic
Committee, 483 U.S. 522 (1987); Nat’l Collegiate Athletic Ass’n v. Tarkanian, 488 U.S. 179 (1988); Blum v.
Yaretsky, 457 U.S. 991 (1982); Rendell-Baker v. Kohn,
457 U.S. 830 (1982); Jackson v. Metro. Edison Co., 419
U.S. 345 (1974); Gilmore v. City of Montgomery, Ala.,
417 U.S. 556 (1974); Moose Lodge No. 107 v. Irvis, 407

12
U.S. 163 (1972); Burton v. Wilmington Parking Authority, 365 U.S. 715 (1961).
On this important question, the Ninth Circuit’s decision conflicts with this Court’s decisions in Burton
and Gilmore and the decisions of other Circuit Courts
of Appeals.
A. The decision of the Ninth Circuit conflicts this Court’s decision in Burton on
the meaning of financial indispensability.
The court below, based on prior Circuit precedent,
held that this Court’s decision in Burton does not apply unless the private actor is financially indepensable to the entire municipal government of the City of
Pasadena. App. 19. In Burton, this Court ruled that
the Wilmington Parking “Authority, and through it
the State” were parties to the discrimination. Burton,
365 U.S. at 725. But this Court did not find that the
Eagle Coffee Shoppe lease was financially indispensable to the entire state of Deleware, or even to the Wilmington Parking Authortity. The Burton case centered on a single parking garage. Burton, 365 U.S. at
719. When the Parking Authority discovered that revenues from parking would not pay for the construction
of that garage, it entered into leases with “tenants for
commercial use of some of the space.” Id. The Eagle
Coffee Shoppe was only one of those tenants. Other
tenants included a bookstore, a jewelry store, and a
food store. Id. at 720. The rent paid by the coffee shop
defrayed only “a portion of the operating expense of an
otherwise unprofitable enterprise.” Id. at 723. The
coffee shop was only one of several commercial enterprises and only accounted for a portion of what was

13
needed to run that one garage. It was not financially
indispensable to the entire Wilmington Parking Authority and certainly not indispensable to the financial success of the State of Delaware!
The focus on a particular project was also recognized by this Court in Rendell-Baker. There, this
Court noted that the Burton decision “stressed that
the restaurant was located on public property and
that the rent from the restaurant contributed to the
support of the garage.” Rendell-Baker, 457 U.S. at
842-43 (emphasis added).
The Ninth Circuit’s decision changes the financial
indispensability requirement in such a manner that
Burton can never again apply to any situation – even
one where a city grants exclusive use, under a 99-year
lease, to an organization to accomplish the public purposes of the city. As a practical matter, there cannot
be a situation where a lease to a nonpublic entity will
be financially indispensable to an entire government
agency. The decision of the Ninth Circuit effectively
overrules Burton and this Court should grant review
to determine whether Burton remains good law.
B. The decision of the Ninth Circuit conflicts with this Court’s decision in Burton
and the decisions of other Circuit Courts
of Appeals on whether the City must be
directly involved in the alleged unconstitutional action.
The Court below concluded that there was no liability for the City because “[t]he City did not participate in, or know in advance about, the initiation or the
cancellation of the Club’s speaking event.” App. 20.

14
But this Court’s decision in Burton does not require
direct knowledge or involvement of the government
agency in the illegal activity. Indeed, this Court did
not find that either the State or the Parking Authority
were directly involved in the Eagle Coffee Shoppe’s
discrimination. Rather, this Court ruled that the government could not abdicate its responsibilities by
simply ignoring them.
The State could have required the Eagle Coffee
Shoppe to comply with the requirements of the Equal
Protection Clause, but failed to include such a requirement in the lease. Burton, 365 U.S. at 725. It was not
any foreknowledge or direct discrimination by a public
employee that made the State liable. Instead it was
the State’s “inaction.” Id. By failing to prevent the
discrimination, the State put its property, power, and
prestige behind the discrimination.
Other Circuit Courts of Appeals agree with this
reading of Burton. For instance, the Fifth Circuit
ruled that where the Burton test is met, “any act of
the private entity will be fairly attributable to the
state even if it cannot be shown that the government
played a direct role in the particular action challenged.” Frazier v. Bd. of Trustees of Nw. Mississippi
Reg’l Med. Ctr., 765 F.2d 1278, 1288 n.22 (5th Cir.
1985), amended, 777 F.2d 329 (5th Cir. 1985).
The First Circuit agrees with the Fifth Circuit’s
reading of this Court’s decision in Burton. In Gerena
v. Puerto Rico Legal Servs., Inc., 697 F.2d 447 (1st Cir.
1983), the First Circuit noted that when the Burton
test is met, “the plaintiff need not show how the government was particularly involved in the challenged

15
action. Rather, the government is charged with all actions of the private party.” Id. 451.
The Ninth Circuit’s decision is in conflict with both
the Fifth Circuit’s decision in Frazier and the First
Circuit’s decision in Gerena. Both the First and Fifth
Circuits accurately followed this Court’s ruling in
Burton. The Ninth Circuit, however, altered the requirements of Burton to require direct knowledge or
participation of the government agency before that
agency can be held liable for the illegal activity of the
putatively private group to which it delegated authority to manage city-owned property. This Court should
grant review to resolve the conflict created by the
Ninth Circuit’s decision.
C. The decision of the Ninth Circuit conflicts the decisions of this Court and
other Circuit Courts of Appeals on finding state action where the putatively private organization operates public property.
In Gilmore v. City of Montgomery, Ala., supra,
this Court noted that when a city makes city-owned
property “available for use by private entities,” courts
should look to the analysis in Burton to determine
whether the city is liable for the discrimination of the
private entity. 417 U.S. at 573. The likelihood of finding a “symbiotic relationship” greatly increases when
the city grants exclusive use of city-owned property to
the private entity. Id. at 574.
This is also a case of exclusive use. Pursuant to
the joint project of the city of Pasadena and judge-initiated Western Justice Center, the City has granted

16
the Center exclusive use of City property for just one
year shy of a century. Like the situation in Gilmore,
the City has given up the power to allow other private
groups to use the property, delegating that authority
to the Western Justice Center.
Further, in this case, the purpose behind the near
century-long exclusive use of the property is to have
the Center carry out the public purposes of the City as
outlined in the Plan of Public Use attached to the
Lease. This plan was presented to the General Services Administration and through the GSA to Congress, and was essential to compliance with the statutory requirement for sale of the property.
Unlike the Ninth Circuit, other Circuit Courts of
Appeals give more searching scrutiny when the property at issue is owned by a public agency. For instance
in Fernandes v. Limmer, 663 F.2d 619 (5th Cir. 1981),
the Fifth Circuit found that ownership of a municipal
airport by municipal governments is sufficient to trigger a finding of state action under Burton. Fernandes,
663 F.2d at 627. The mere fact that every square foot
of the airport was leased out to private parties “does
not remove from the realm of state action restrictions
on the exercise of civil rights at the site.” Id.; see also
Air Line Pilots Ass’n, Int’l v. Dep’t of Aviation of City
of Chicago, 45 F.3d 1144 (7th Cir. 1995).
This Court should grant review to determine
whether long-term exclusive use of public property of
city property removes the property from the requirements of the Constitution.

17
CONCLUSION
The Ninth Circuit’s decision below allows governmental agencies to wash their hands of viewpoint discrimination on public properties by delegating away
their authority. This may be a welcome development
for those entities concerned about liability in the current climate of “cancel culture.” It is not, however,
consistent with the Constitution. There is no “delegation exception” to the First Amendment.
The Ninth Circuit’s ruling also effectively overrules this Court’s decision in Burton by adding a requirement that can never be met. The court below
further departed from this Court’s ruling in Burton by
requiring active participation or at least foreknowledge of the private group’s illegal activities before finding public agency liability. This ruling also
conflicts with the decisions of other Circuit Courts of
Appeals.
Petitioner prays that the petition be
granted.
DATED: June 16, 2021
Respectfully submitted,
ANTHONY T. C ASO
Counsel of Record
Center for Constitutional
Jurisprudence
Claremont Institute
1317 W. Foothill Blvd., Ste 120
Upland, CA 91786
(877) 855-3330
tcaso@claremont.org

Counsel for Petitioner

